                Report on Audit of Corporate Office Incurred
                        Costs for Fiscal Year 2003

                                 August 2004

                     Reference Number: 2004-1C-160




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                          August 26, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE



       FROM:                 Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

       SUBJECT:              Report on Audit of Corporate Office Incurred Costs for Fiscal
                             Year 2003 (Audit #20041C0242)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s certified final
       corporate indirect cost proposal and related books and records for the reimbursement of
       Fiscal Year (FY) 2003 incurred costs. The purpose of the examination was to
       determine the allowability and allocability of corporate office indirect costs and to
       recommend contracting officer-determined corporate indirect costs for the period
       March 30, 2002, through March 28, 2003.
       The DCAA examination of the contractor’s FY 2003 corporate office incurred costs
       proposal disclosed questioned costs of significant items. However, the DCAA opined
       that the contractor’s proposed corporate incurred costs are acceptable as adjusted by
       its examination. Additionally, for FY 2003, the DCAA considered the contractor’s
       accounting system to be adequate for the accumulation and reporting of corporate office
       incurred costs.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
